<html>
<title> - TERRORIST NETWORKS IN PAKISTAN AND THE PROLIFERATION OF IEDS</title>
<body><pre>[Senate Hearing 112-738]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-738

 
                    TERRORIST NETWORKS IN PAKISTAN 
                     AND THE PROLIFERATION OF IEDS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 13, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
79-800                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f394839cb3908680879b969f83dd909c9edd">[email&#160;protected]</a>  


                 COMMITTEE ON FOREIGN RELATIONS        

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         MIKE LEE, Utah
CHRISTOPHER A. COONS, Delaware       MARCO RUBIO, Florida
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia

                              (ii)        

  
?

                            C O N T E N T  S

                              ----------                              
                                                                   Page

Barbero, Gen. Michael, U.S. Army, Director, Joint Improvised 
  Explosive Device Defeat Organization, U.S. Department of 
  Defense, Washington, DC........................................     5
    Prepared statement...........................................     8
Carpenter, Jonathan, Senior Economic Adviser, Office of the 
  Special Representative for Afghanistan and Pakistan, U.S. 
  Department of State, Washington, DC............................    12
    Prepared statement...........................................    15
Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1

                                 (iii)

  


      TERRORIST NETWORKS IN PAKISTAN AND THE PROLIFERATION OF IEDS

                              ----------                              


                      THURSDAY, DECEMBER 13, 2012

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:31 a.m., in 
room SR-418, Russell Senate Office Building, Hon. Robert P. 
Casey, Jr. (chairman of the subcommittee) presiding.
    Present: Senator Casey.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing will come to order. Thanks, 
everyone, for making this transition in light of the power 
outage. We're grateful for the work that was done by Bertie and 
your team to get this done. We're grateful for that. I'll have 
an opening statement and then we'll go right to our witnesses.
    Today the Senate Foreign Relations Committee's Subcommittee 
on Near Eastern and South and Central Asian Affairs meets to 
examine the efforts to combat the proliferation of improvised 
explosive devices, IED as we know them by the acronym, and the 
role of terrorist organizations in Pakistan. We are now meeting 
in open session, which will be followed by a closed session 
where we can explore these issues more deeply in a classified 
setting.
    This subcommittee met more than 2 years ago to examine the 
scourge of IEDs in Afghanistan and the flow of precursor 
materials from Pakistan. Today we hope to review the status of 
those efforts since November 2010.
    It's instructive to start with two stories about two of my 
constituents whose lives were forever changed by IEDs, and I'm 
sure there are Members of the House and the Senate that could 
provide stories from their own States. On my left there is a 
photograph of Adam Keys. Adam moved from Canada to the Lehigh 
Valley of Pennsylvania, on the eastern side of our State. He 
moved there as a teenager and joined the U.S. Army after he got 
his green card.
    In July 2010, Adam's vehicle hit an IED in Zabul province. 
The 14-ton mine-resistant armored vehicle was thrown into the 
air by the blast. Four soldiers in the truck were killed, 
including Adam's best friend from Whitehall High School in 
Pennsylvania, Jesse Reed.
    Adam lost both legs and his left arm. He has had more than 
100 surgeries to repair the damage to his body. There was a 
news account that said he had 120 surgeries. I just saw him 
last week at Walter Reed and he said the number is actually 130 
surgeries.
    I first met Adam back in March 2011 and had the great 
opportunity to see him in Bethesda just recently. Now an 
American citizen and promoted to sergeant, Adam's road to 
recovery has been incredibly long. He's a true inspiration to 
all of us and he and his family are in our prayers.
    I want to add a footnote here. I've probably never met 
anyone who's been through so much horror and still has a sense 
of optimism. The day I saw him he was about to move from one 
area 
of Walter Reed to the next. He was anticipating that move in a 
matter of hours or minutes when I saw him, and he was in great 
spirits.
    On my right is a photograph of Nick Staback. Nick is an 
Army specialist from the county in Pennsylvania that I live in, 
Lackawanna County, and I knew his grandfather, who served in 
the Pennsylvania General Assembly. In October 2011 Nick was on 
a foot patrol in the Arghandab Valley in Afghanistan when an 
IED exploded in his path. He lost both legs and spent the past 
year recovering at Walter Reed National Military Medical Center 
in Bethesda. Nick's mother Maria took a leave of absence from 
her job to move to Bethesda to be with Nick as he learned how 
to walk on prosthetic legs.
    I met Nick and his family shortly after his return from 
Afghanistan and I was awed and inspired by his positive 
attitude and his determination not to let his injuries slow him 
down or stop him from doing the things that he loves. In fact, 
I understand from his mother that Nick is in Texas on a hunting 
trip as we speak. The day that I first met him, that was one of 
the objectives that he had upon leaving Walter Reed, to figure 
out a way to keep hunting in the future. Again, a tremendous 
sense of optimism and positive thinking that characterize both 
these patriots.
    Nick is now 21 years old and he's moved into an apartment 
near the hospital, and we're all optimistic that he has a 
bright future ahead of him. We have no doubt about that.
    As public officials, we owe nothing less than our greatest 
efforts and then some to confront this terrible weapon of war. 
On behalf of Nick, Adam, and the thousands of other U.S. forces 
still out there today on patrol, we need to redouble our 
efforts and our focus on stopping the illicit flow of these 
deadly IED precursor chemicals. As I think through how to 
attack this issue diplomatically and otherwise, every step is 
taken with Nick and Adam and thousands of others in mind.
    Over the past 2\1/2\ years I have sought to raise the 
profile of the threat of IEDs in Afghanistan. In 2010 I 
introduced a resolution, which passed unanimously, calling for 
increased efforts by Pakistan, Afghanistan, and their neighbors 
to prevent ammonium nitrate fertilizer from entering 
Afghanistan. As mentioned, I chaired a hearing in this 
subcommittee to hear testimony on the steps the United States 
could take to minimize the threat of IEDs. Soon thereafter, I 
commissioned a report from the General Accountability Office to 
examine this issue, particularly United States cooperation with 
Pakistan.
    I have also pushed for conditioning aid to Pakistan based 
on its progress on this issue. At the end of last year, I 
introduced an amendment to the National Defense Authorization 
Act which would prohibit some security assistance--the 
operative word there being ``some''--some security assistance 
from going to Pakistan until the government demonstrates 
commitment to stopping the flow of IED components.
    I am glad to say that our own interagency structure has 
elevated this issue and that it has raised it at the most 
senior levels in Afghanistan, Pakistan, and other international 
forums. In fact, I have had excellent communication with our 
Ambassador in Islamabad, Richard Olson. Yesterday, Ambassador 
Olson sent me a letter with an update on efforts to restrict 
the availability of IED components, improve the counter-IED 
abilities of Pakistani law enforcement and security forces, and 
raise public awareness about the groups that wield these deadly 
weapons. I'm glad that Ambassador Olson is making this such a 
priority in his work as Ambassador and I look forward to 
working with him closely to ensure that Pakistan follows 
through on its commitments.
    Despite this interagency focus, much work remains to be 
done. The Department of Defense's section 1230 report on 
progress toward security and stability in Afghanistan, released 
this month, acknowledged that relations with Pakistan have 
improved, but says, ``Pakistan's continued acceptance of 
sanctuaries for Afghan-focused insurgents and failure to 
interdict IED materials and components continue to undermine 
the security of Afghanistan and pose an enduring threat to 
U.S., coalition, and Afghan forces.''
    Pakistan has also acutely felt the terrible impact of these 
weapons. I get reports from the Pakistani Embassy on the 
casualty counts of these Pakistani civilian and security forces 
killed in terrorist attacks. According to the latest Embassy 
reports, 37,990 Pakistani civilians have been killed in 
terrorist attacks since 2001. So just a little shy of 38,000 
people killed in that time period. In addition, 6,416 security 
forces have perished. The U.S. Embassy tells me that Pakistan 
has lost 2,395 people, including civilians, to IEDs over the 
past 12 months.
    Each one of these deaths is a tragedy and it's important 
that we honor and acknowledge the enormous sacrifices that 
Pakistanis have made in the struggle against violent extremism 
in their own country.
    Pakistan is key to preventing bomb components from making 
their way into Afghanistan. That's why we're here today. When I 
traveled to Pakistan in the summer of 2011 with Senators 
Whitehouse, Blumenthal, and Bennet, we raised this issue 
repeatedly with Pakistani officials. Whether it was the 
President, the Prime Minister, General Kayani, anyone we talked 
to, we raised this issue over and over and over again.
    Based on these exchanges and others over the years, I 
believe that Pakistan's leaders understand the problem and 
share our interest in preventing more American, Pakistani, and 
Afghan casualties due to IEDs. In 2011, Pakistan drafted a 
strategic plan to combat IEDs. We were presented with that plan 
on our visit and they made commitments to implement it. On 
October 5 of this year, Interior Minister Malik visited the 
United States to participate in a bilateral working group on 
the issue. These are promising steps and I commend the 
Pakistani Government for this commitment. In recent months 
there appears to have been significant activity and Pakistan 
has worked closely with the United States on moving this 
forward.
    While I am pleased that Pakistan has developed a very 
detailed and comprehensive set of plans to counter IEDs, let me 
be clear, it's time to finally and fully implement these plans. 
IED incidents have risen in Afghanistan. The flow of chemicals 
coming from across the border has not diminished. We continue 
to see far too many IED casualties at Walter Reed and in 
Bethesda. Thousands of Pakistanis died in the past year, as I 
have mentioned. We need to see execution of these plans. We 
need to see, in a word, action.
    Given the gravity of this threat and the mounting casualty 
toll, the current pace of activity by the Pakistani Government 
is not acceptable. At the November 2010 hearing that we had, I 
laid out the following benchmarks for Pakistan: First, I said 
they needed to do more to strengthen the legislative framework 
to restrict the sale and transport of ammonium nitrate and 
other IED precursor materials like potassium chlorate. Second, 
I called for a better tracking and accountability system for 
these chemicals inside the country from producer to distributor 
to final purchase. Finally, at that hearing I urged that the 
United States and Pakistan work together to employ better 
controls along the border with Afghanistan.
    In addition to the important responsibilities borne by 
governments to tackle this problem, the private sector can also 
play a constructive role. Members of the fertilizer industry in 
Pakistan have the opportunity to be good corporate citizens. 
They should also understand that they are part of a broader 
global corporate community, where reputations matter, just like 
they do here in Washington. The failure to take action could 
have an adverse impact on their ability to do business in the 
future. We met with some of those folks in August 2011 in our 
visit to Islamabad.
    I look forward to a readout from our witnesses on where we 
stand and what we as a country are doing to accelerate our 
efforts to finally turn back this tide.
    I want to thank both JIEDDO and the Department of State for 
working closely with me on this critical issue over the past 2 
years. General Barbero, you have been not only a close ally but 
also a bright light on this issue. I know it has been very 
difficult to make progress and sometimes even to measure that 
progress, but I commend your work and appreciate you being here 
today. I commend you not just because of your work and not only 
because that you grew up in Philadelphia, but that certainly 
helps.
    We are also fortunate to be joined by SRAP Economic Adviser 
Jonathan Carpenter. Jonathan, we appreciate you being here. 
Jonathan's the lead State Department staff member on this issue 
as well as others related to the border between Afghanistan and 
Pakistan. We benefited from Jonathan's expertise when he 
recently served as a fellow on the Senate Foreign Relations 
Committee. We're glad that he could join us on the other side 
of the table. So Jonathan, welcome back.
    General, let's start with you, then we'll move to Jonathan, 
and then we'll get to some questions, and then we'll have to 
move once again to a closed setting. I want both of you to know 
that your full statements will be made part of the record, so 
if you could provide as good as a 5-to-7-minute summary as you 
can.
    Thank you.

 STATEMENT OF GEN. MICHAEL BARBERO, U.S. ARMY, DIRECTOR, JOINT 
     IMPROVISED EXPLOSIVE DEVICE DEFEAT ORGANIZATION, U.S. 
             DEPARTMENT OF DEFENSE, WASHINGTON, DC

    General Barbero. Chairman Casey, thank you for the 
opportunity this morning to appear before you and share my 
views on this very critical subject. Up front, if I could 
digress for a minute and talk about your opening comments and 
the cost of this issue in personal and human terms. I could sit 
here and tell you that in my mission and our organization we 
are making progress, but to Adam Keys and Nick Staback and 
their families that is not progress and that is not good 
enough.
    The same message we hear from families across this country: 
That is not good enough. And I get it, and every day we are 
focused to prevent this and to help our troopers execute their 
missions safely and securely. I just want to comment on that.
    Up front, I understand the importance of our relationship 
with Pakistan and to address the IED networks that threaten our 
strategic interests in the region requires a cooperative 
relationship and engagements with Pakistan. The United States, 
led by the State Department, continues to seek a relationship 
with Pakistan that 
is constructive and advances both United States and Pakistani 
interests.
    Secretary Clinton has kept this topic at the forefront of 
all her discussions and we have a strong relationship with the 
Office of the Special Representative for Afghanistan and 
Pakistan, represented today by my friend, Jonathan Carpenter. 
Their support and actions have significantly contributed to the 
increased interagency cooperation we are seeing on this IED 
challenge.
    I would like to thank you for being the driving force in 
Congress and a steadfast advocate on this difficult Pakistan 
IED issue, and also for your leadership in shepherding through 
the fiscal year 2013 counter-HME legislative proposal, which 
will give us another tool to use in this fight. So thank you 
for your leadership and focus on this IED problem.
    As you have commented, the importance of countering this 
threat posed by IEDs and attacking these threat networks cannot 
be overstated. Counter-IED is an area ripe for cooperation 
between the United States and Pakistan. I am also encouraged by 
the recent positive tone in our discussions with the Government 
of Pakistan and the assurances from our Pakistani counterparts. 
But, like you, I believe our Pakistani partners can and must do 
more.
    You have highlighted the numbers of IEDs and the cost to 
our troops in Afghanistan. More than 60 percent of United 
States combat casualties in Afghanistan, both killed and 
wounded in action, are the result of IEDs. This year nearly 
1,900 U.S. casualties have been caused by IEDs.
    As you stated and we acknowledge, Pakistan has suffered 
greatly from these networks and these devices, and they have a 
significant, and face a significant and growing IED challenge. 
So it is in their interest to increase counter-IED cooperation 
with us and take effective actions against these networks.
    As you know, despite a countrywide ban on the importation 
of ammonium-nitrate-based fertilizers by the Government of 
Afghanistan, fertilizer-based explosives still remain our 
greatest counter-IED challenge in Afghanistan. Today more than 
85 percent of the IEDs employed against coalition forces are 
homemade explosives, and of those about 70 percent are made 
with ammonium nitrate derived from the fertilizer calcium 
ammonium nitrate, referred to as CAN, a common agricultural 
fertilizer produced in and transited through Pakistan.
    CAN is produced by two factories in Pakistan owned and 
operated by the Fatima Group. While CAN is produced in other 
regional countries, I have seen no evidence to indicate that 
CAN used for IEDs in Afghanistan comes from any other country 
in any significant amounts.
    While ammonium nitrate continues to be the most prominent 
main charge in HME-based IEDs in Afghanistan, the use of 
potassium chlorate by insurgents has increased for 12 straight 
months. Potassium chlorate, which is also banned for 
importation by the Government of Afghanistan, is legally 
imported into Pakistan 
for use by the textile and matchstick industries. It is then 
transferred to, or stolen by, insurgents for use as IED 
materials in Afghanistan.
    In concert with our Pakistani partners, we must address the 
continued flow of ammonium-nitrate-based fertilizers and other 
IED materials into Afghanistan. Since then I would point out, 
as far as seizures of amounts in Afghanistan, since 2009 we 
have seen a significant increase in the amounts we have seized 
in Afghanistan, from 30 tons in 2009 to 440 tons so far in 
2012.
    So the high number of IED incidents and the growing seizure 
rates highlight the continued lack of effective measures to 
impede the supply of IED materials into Afghanistan from 
Pakistan. In Afghanistan we are playing defense.
    In 2011 I engaged the top leadership of Fatima Group, the 
producers of CAN in Pakistan, to urge their action in 
countering the illicit use of their fertilizer as an explosive 
through the implementation of several steps--a dye program, 
better tracking, and such. I also engaged to International 
Fertilizer Association and global fertilizer community to 
encourage development of a whole-of-industry approach 
addressing the illicit use of their products.
    While the international and United States professional 
fertilizer associations are receptive and actively addressing 
these issues, the producers within Pakistan have been less than 
cooperative. Despite making minor packaging, tracking, and 
marketing changes, they have not implemented any effective 
product security or stewardship efforts. I believe Pakistani-
based CAN producers can and must do more.
    While the Government of Pakistan has taken military actions 
to address the IED threat and go after these networks, these 
efforts remain focused on Pakistan's domestic threat and have 
had no measurable effect on the number of IED events in 
Afghanistan, on the flow of HME precursor materials smuggled 
across the border, or on the threat networks operating in 
Pakistan who attack our troops in Afghanistan.
    While the dialogue between the U.S. Government and the 
Government of Pakistan on IED-related issues has been 
improving, I believe there is still much work to be done. We 
must move from discussing cooperation to actual cooperation.
    You cited some of the examples of some of the legislation. 
I will just highlight a couple. For example, in June 2011 the 
Government of Pakistan adopted a national counter-IED strategy 
to prevent the smuggling of these materials. While this sounds 
substantial, it has neither been fully implemented nor 
resourced and therefore will have minimal impact on this issue.
    Another example: The Government of Pakistan's National 
Counter-IED Act of 2012, which in their words, ``will provide 
the legal framework to the counter-IED strategy,'' has not been 
passed by Parliament into law and therefore remains unenforced.
    A final example: In July the Government of Pakistan 
committed to a military-to-military counter-IED cooperation 
framework. To date, despite our input, this document remains in 
its original draft form, with no progress. This is an area, the 
military cooperation; where we must move beyond talking about 
cooperation to developing a comprehensive framework and then 
work together to address the shared problems.
    As far as intelligence, countering the IED threat and 
networks operating at both sides of the border requires strong 
partnership between the United States and Pakistan. The U.S. 
Government needs to, and we are working to, share with our 
Government of Pakistan partners' actual information on threat 
networks of mutual interest, and in turn the Government of 
Pakistan must act on the information and likewise share the 
critical intelligence with us which is needed to counter these 
threat networks. So there's much work to be done, as you 
stated.
    If I could just briefly talk about what the whole of the 
U.S. Government is doing to address these threat networks and 
the IED challenge. We focus on the military solution and 
military capabilities, but we have increasingly recognized the 
requirement for interagency cooperation and cooperation with 
foreign governments. Today we are working with an expanded 
counter-IED community of action that did not exist previously. 
We have established an interagency forum that SRAP cochairs, 
consisting of United States intelligence and interagency 
partners, Federal law enforcement, key allies, and our commands 
in Afghanistan, to achieve a more effective effort to disrupt 
threat networks employing IEDs against U.S., ISAF, and Afghan 
forces.
    And we are having some results. For example, the U.S. 
Department of Commerce has added 152 persons to the entity list 
because of IED-related matters. Now, this designation stops 
U.S. companies from trading with these entities, companies, 
individuals, or organizations which we can prove violate U.S. 
export laws. U.S. Department of Treasury has imposed economic 
sanctions on 38 Afghan Pakistan-based facilitators, three 
specifically for IED-related matters.
    Through coordinated efforts and strong partnership across 
the U.S. Government and with our international partners, the 
counter-IED community is going after these threat networks 
wherever they are, their leaders, their funds, and their 
facilitators, employing all the tools at our disposal to 
counter the networks that employ IEDs.
    Now, going forward we cannot step back from this linked 
interagency process and the intelligence community needs to 
continue to focus on these networks. We cannot go back to the 
stovepipe approach that will fail to address the complex 
present-day threats.
    In closing, I would like to just, instead of quoting, also 
echo your comments about the DOD report on progress toward 
security and stability in Afghanistan. I believe the comments 
there and its description are accurate. While we have seen and 
welcome recent indications of increased Pakistani cooperation 
and gestures on their part, Secretary Panetta this week 
recently said it best, ``Actions have to speak louder than 
words.''
    The U.S. Government is unified in taking action, but we 
cannot solve this IED challenge without the significant 
commitment of our Pakistani partners; government, military, and 
industry alike.
    So, Chairman, again thank you for the opportunity to appear 
before you today. I look forward to answering your questions, 
and again thank you for your leadership on this issue.
    [The prepared statement of General Barbero follows:]

              Prepared Statement of LTG Michael D. Barbero

    Chairman Casey, Ranking Member Risch, and distinguished members of 
the subcommittee, thank you for inviting me to appear before you today 
to share my views on the improvised explosive device (IED) challenge in 
the Afghanistan-Pakistan region.
    In February 2006, the U.S. Department of Defense (DOD) officially 
established the Joint Improvised Explosive Device Defeat Organization 
(JIEDDO) to focus on the IED threat in Iraq and Afghanistan. JIEDDO's 
mission, as defined by DOD Directive 2000.19E, ``is to focus (lead, 
advocate, coordinate) all DOD actions in support of the Combatant 
Commanders' and their respective Joint Task Forces' efforts to defeat 
IEDs as weapons of strategic influence.'' \1\ JIEDDO is singularly 
focused on the IED threat and exists to rapidly field capabilities to 
reduce the effectiveness of this asymmetric weapon.
---------------------------------------------------------------------------
    \1\ Joint Improvised Explosive Device Defeat Organization, 
Department of Defense (DOD) Directive 2000.19E (14 Feb. 2006), para 4.
---------------------------------------------------------------------------
                             IED CHALLENGE

    The importance of countering the threat posed by IEDs and attacking 
these threat networks cannot be overstated. During the past 2 years in 
Afghanistan, IED events increased 80 percent, from 9,300 in 2009 to 
16,800 in 2011. Even though IED events are down 8 percent this year, 
there have been nearly 14,500 IED events in 2012.
    IEDs remain the leading cause of civilian, military, and law 
enforcement casualties in both Afghanistan and Pakistan. More than 60 
percent of U.S. combat casualties in Afghanistan, both killed and 
wounded in action, are a result of IEDs. This year, 1,874 U.S. 
casualties have been caused by IEDs. It is important to note, this 
threat is not exclusive to Afghanistan. Pakistan has a significant and 
growing IED challenge that threatens its own soldiers and populace. As 
of November 2012, there have been more than 926 IED attacks inside 
Pakistan, resulting in an excess of 3,700 casualties.\2\ Recently, on 
November 21 in Quetta, a Pakistani military vehicle was targeted by a 
vehicle-borne IED, resulting in the deaths of three Pakistani soldiers 
and one civilian. The deadliest attack in Pakistan in nearly 5 months 
occurred in Rawalpindi on November 22, where a person-borne IED killed 
23 and wounded more than 62 people participating in a Shiite Muslim 
procession. The threats posed by IEDs and the threat networks are areas 
of joint concern for both the U.S. and Pakistan and with the 
improvement in bilateral relations since July, there has been increased 
cooperation.
---------------------------------------------------------------------------
    \2\ Worldwide IED Database, Institute for Defense Analysis,1 Jan. 
2012 through 13 Nov 2012.
---------------------------------------------------------------------------
    Fertilizer-based explosives still remain our greatest challenge in 
Afghanistan. Today, more than 85 percent of IEDs employed against 
coalition forces are homemade explosives (HME), and of those, about 70 
percent are made with ammonium nitrate derived from calcium ammonium 
nitrate (CAN)--a common agricultural fertilizer produced in, and/or 
transited through, Pakistan. CAN is produced by two factories in 
Pakistan, with a total production capacity of 870,000 metric tons 
annually, but did not reach production capacity in 2011. An estimated 
200 tons of CAN was used to make IEDs in Afghanistan this year. Despite 
a countrywide ban on the importation of ammonium nitrate-based 
fertilizers by the Government of Afghanistan, this HME precursor 
continues to be the main charge in the majority of IEDs in that 
country.
    While ammonium nitrate continues to be the most prominent main 
charge in HME-based IEDs in Afghanistan, the use of potassium chlorate 
by insurgents has increased for 12 straight months. Potassium chlorate 
is now the main charge in 23 percent of exploited IEDs, up from 13 
percent a year ago. Insurgents perceive potassium chlorate as being a 
more effective explosive. Potassium chlorate, which is also banned for 
importation by the government of Afghanistan, is legally imported by 
Pakistan for legitimate use in the textile and matchstick industries. 
It is illegally sold to or stolen by insurgents for use as HME 
material.
    A critical piece to any IED is the initiator, a small, sensitive 
primary explosive device generally used to detonate a larger, more 
powerful and less sensitive secondary explosive. One type of initiator 
commonly used is the blasting cap. Pakistani law requires companies who 
produce blasting caps to sell their products only to entities holding 
an explosives permit, such as construction or mining companies. Despite 
this fact, military forces are recovering these products on the 
battlefield in Afghanistan. Curbing the supply of blasting caps to 
insurgents in Afghanistan can help reduce the number of IED events in 
Afghanistan, and I believe this is an important area of future 
engagement with the Government of Pakistan.
    The continued flow of ammonium nitrate-based fertilizers and other 
IED materials from Pakistan and smuggled into Afghanistan is a crucial 
area we continue to address in concert with our Pakistani partners. 
This is evident by the growing record seizures by coalition forces in 
Afghanistan. During the past year, coalition forces have seized more 
than 444 tons of HME precursor materials, an increase of 16 percent 
since last year. This includes more than 341 tons of ammonium nitrate-
based fertilizer and 37 tons of potassium chlorate. The high number of 
IED incidents and seizure rates highlights the continued lack of 
effective measures to impede the supply of IED materials into 
Afghanistan from Pakistan. In Afghanistan, we are playing defense.

                                INDUSTRY

    In 2011, I engaged the producers of CAN in Pakistan to request 
their commitment in countering the illicit use of fertilizer as an 
explosive through the implementation of a dye program and instituting 
effective control and tracking measures. Additionally, I also engaged 
the International Fertilizer Association and the global fertilizer 
community to urge their commitment in developing a whole-of-industry 
approach to: implement a universal dye program; explore nondetonable 
substitutes for ammonium nitrate; institute effective industrywide 
standards, regulations and safeguards regarding the production and 
distribution of nitrogen-based fertilizer; and produce a global 
education and awareness campaign.
    Professional fertilizer associations are receptive and actively 
addressing these issues. The International Fertilizer Association has 
engaged its global membership with the establishment of a new product 
security task force to create momentum within the industry on the 
important issue of fertilizer misuse. Efforts continue to establish 
effective and adequate measures to secure CAN. The producers of CAN in 
Pakistan made minor packaging and marketing changes, but has yet to 
establish an effective tracking process to monitor and account for the 
distribution of the product. To date, measures taken by industry or 
government have minimal impact on the HME flow into Afghanistan.

                         GOVERNMENT OF PAKISTAN

    During the past few years, our cooperation on the IED challenge 
with Pakistan has had mixed results. While much work remains, Pakistani 
authorities now acknowledge their slow start in the counter-IED fight 
and have realized IEDs are not just a threat to ISAF but to Pakistan as 
well. The Government of Pakistan has taken some actions to address IED 
threat, mostly focused on Pakistan's domestic challenge, thus having 
limited effect on the number of IED events in Afghanistan or on the 
flow of HME precursor materials smuggled across the Afghanistan-
Pakistan border. However, dialogue between the United States and the 
Government of Pakistan on IED-related issues has been improving, as 
evident by recent engagements such as the Law Enforcement and 
Counterterrorism Working Group in October 2012 and the Defense 
Consultative Group meeting in December 2012. It is essential we 
continue to increase cooperation to address the illicit use and 
trafficking of HME and dual-use materials and the threat networks 
trafficking and employing IEDs on both sides of the Afghanistan-
Pakistan border.
    In June 2011, the Government of Pakistan adopted a national 
counter-IED strategy to prevent the smuggling of CAN and other 
precursors out of the country; build Pakistan's counter-IED capacity 
through equipping and training; launch a vigorous counter-IED public 
awareness campaign; and modify and strengthen existing legislative 
framework on terrorism and explosives. This is a very positive step. 
The implementation plan, developed by Pakistan's Directorate General 
for Civil Defense, has designated the Pakistani Army the lead for 
counter-IED efforts. While these steps sound substantial, Pakistan has 
not resourced this strategy to the level we see as necessary.
    Effective and enforceable regulations and border controls are 
necessary and essential to mitigating this shared threat and these 
measures can be effective. This has proven effective in other countries 
that have recently implemented regulations on ammonium nitrate and are 
seeing results. We recognize and appreciate the actions of the 
Government of Pakistan to ban the exportation of products such as CAN; 
however, the porous borders, lack of enforcement in border regions and 
the high economic incentive to smuggle HME precursors will continue to 
render these efforts ineffective. The improved border coordination 
enabled by the tripartite border control standard operating procedure 
agreement, signed by the U.S., Pakistan, and Afghanistan in November, 
and the ongoing discussion on the development of a comprehensive border 
security strategy are steps in the right direction.
    The Government of Pakistan recently approved the antiterrorism 
(amendment) bill 2012, amending the 1997 Anti-terrorism Act. This new 
legislation strengthens the provisions of the 1997 act by covering all 
aspects of financing terrorism including provisions on freezing, 
seizing and forfeiture of assets and properties of those involved in 
financing terrorism. This is a very positive step and an area of 
critical importance. I would like to commend the Government of Pakistan 
for taking action against several individuals involved in IED 
facilitation networks and urge their commitment to take action against 
others. Now, in accordance with this law, the Government of Pakistan 
should take action to fully enforce United National Security Council 
sanctions against designated personnel.
    Countering the IED threat and the networks operating on both sides 
of the Afghanistan-Pakistan border requires a strong partnership 
between the United States and Pakistan. The U.S. Government needs to 
provide the Government of Pakistan with actionable information on 
targets of mutual interest, and in turn, the Government of Pakistan 
must act on the information.
    To be a partner in the fight against IEDs and threat networks, the 
Government of Pakistan must continue to expand cooperation with 
international partners to detain these individuals and share the 
critical intelligence needed to address these threat networks who 
endanger both their country and NATO forces and civilians in 
Afghanistan. We stand ready to partner with Pakistan to tackle this 
mutual threat.

                           PAKISTAN MILITARY

    Last year, the Government of Pakistan committed to a military-to-
military cooperation framework regarding the IED issue. This is an area 
where we must move beyond talking about cooperation to developing a 
comprehensive cooperation framework and take action to address this 
shared problem.
    The DOD, through the Office of Defense Representative-Pakistan, the 
United Kingdom and Pakistan have partnered to train and equip 
Pakistan's law enforcement and security forces in counter-IED and 
attack-the-network tactics and techniques to build Pakistan's capacity 
to find, disrupt, and exploit IEDs, components and threat networks 
through advanced search, IED disruption and explosive scene 
investigation. The international community has provided specialized 
equipment and training in all of these areas. We can and must work 
together to dissect the IED supply chain to go after the nefarious 
actors and threat networks operating on both sides of the Afghanistan-
Pakistan border. This is the decisive course of action and a critical 
area for cooperation between the United States, Pakistan, and 
international community.

                        U.S. GOVERNMENT EFFORTS

    JIEDDO and DOD respond to the IED problem from the military 
perspective, but we have increasingly recognized the requirement for 
interagency cooperation and cooperation with foreign governments is as 
essential in addressing this complex issue.
    Today, JIEDDO is working with an expanded community of action that 
did not exist previously to put pressure on these IED networks. We have 
established an interagency forum, cochaired by JIEDDO, Under Secretary 
of Defense for Policy and the Department of State Special 
Representative for Afghanistan and Pakistan, consisting of U.S. 
intelligence and interagency partners, federal law enforcement, key 
allies (United Kingdom, Canada, and Australia) and our commanders in 
Afghanistan to achieve a more effective effort to disrupt threat 
networks employing IEDs against U.S. and coalition forces.
    We recognize no single government department or international 
partner has the ability to fully limit access to IED precursors, so we 
are integrating our efforts to go after the threat networks 
distributing these materials. Our U.S. Government partners bring 
expertise in defeating and prosecuting criminal networks; applying 
financial pressures by going after the assets of IED network members, 
financers and distributors; enacting export controls and treaty 
compliance efforts that lead to the interdiction of IED components; 
advancing counter-IED objectives through public diplomacy and 
regulatory changes; advising on legitimate agricultural requirements; 
and coordinating and executing national counter-IED policy efforts 
outside of declared combat zones through the interagency Joint Program 
Office for Countering IEDs. This is by no means a comprehensive list of 
the actions our interagency partners are applying to the counter-IED 
fight, but it should give an idea of the collaboration occurring on all 
levels.
    For example, the U.S. Department of Commerce added 152 persons to 
the Entity List because of IED-related matters. This designation stops 
U.S. companies from trading with these entities--companies, 
organizations, persons--who violated U.S. export laws. The U.S. 
Department of Treasury has imposed economic sanctions on 51 
Afghanistan-Pakistan-based terrorist and their supporters since October 
2010, two specifically for IED-related matters. One of Treasury's 
designees, Taliban financier Haji Mohammed Qasim, was arrested by 
Afghan and coalition security forces in Logar province on November 30, 
2012. As of December 2012, the U.S. Department of Homeland Security, 
U.S. Immigration and Customs Enforcement, Homeland Security 
Investigations' Global Shield Program, operating under the auspice of 
the World Custom's Organization, has produced 42 enforcement actions 
and 49 seizures totaling 140.67 metric tons of explosive precursor 
chemicals. Through coordinated efforts and strong partnership across 
the U.S. Government and with our international partners, the counter-
IED community is going after these nefarious actors and effectively 
countering the networks that use IEDs. Maintaining this momentum 
against an adaptive threat requires the continued focus of the 
intelligence community to build a common intelligence picture. The 
increasingly interlinked challenges we face demands integrated and 
synchronized efforts. We cannot go back to a stove-piped approach to 
address present day threats.

                                CLOSING

    The challenge of interdicting this HME threat is considerable and 
must be addressed using a comprehensive approach, applying a range of 
assets in close partnership with our allies and other countries in the 
region to include Pakistan. This is a common threat and an area where 
the United States and Pakistan can continue to grow our cooperation.
    Just as the IED supply chain is not limited by national borders, 
the counter-IED response cannot be limited to the interdiction of HME 
precursor materials in Afghanistan. Success against the supply of HME 
precursor materials is essential to reduce the effect of IEDs on our 
forces, as well as on government personnel and civilians in Afghanistan 
and Pakistan. While the U.S. Government is unified and is taking 
action, we cannot solve this HME challenge without our regional 
partners like Pakistan--government, military, and industry alike.
    Chairman Casey, Ranking Member Risch, members of the subcommittee, 
again, thank you for the opportunity to appear before you today. I look 
forward to your questions.

    Senator Casey. General, thank you.
    Mr. Carpenter.

   STATEMENT OF JONATHAN CARPENTER, SENIOR ECONOMIC ADVISER, 
   OFFICE OF THE SPECIAL REPRESENTATIVE FOR AFGHANISTAN AND 
       PAKISTAN, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Carpenter. Thank you, Senator Casey, for the invitation 
to appear before the subcommittee and for the welcome back to 
the committee. If I told you it felt different on this side, 
you would believe me.
    On behalf of Secretary Clinton and Ambassador Grossman, the 
Department of State appreciates the leadership role that you 
and the subcommittee are playing in seeking solutions to the 
lethal problem of improvised explosive devices, or IEDs, and 
the threat they pose to our military forces and civilians 
deployed in Afghanistan. I join the General in thanking you for 
what is a very poignant reminder here of why we do this and 
what is important and how we should measure our progress.
    As you know, IEDs are responsible for the majority of 
coalition fatalities in Afghanistan. Your leadership and 
continuing congressional attention to this matter directly 
supports our efforts with the Pakistani Government to make 
progress against these networks that supply these weapons. 
Secretary Clinton has emphasized the importance of decisive 
action against the IED threat in nearly every conversation she 
has had with senior Pakistani officials over the past few 
years, as she did again last week in Brussels with Foreign 
Minister Khar. As you noted, Ambassador Olson has also made 
counter-IED efforts a priority in his initial calls with 
Pakistani officials in Islamabad and has noted the deep concern 
expressed by this committee and the need for impactful action.
    Over the past 2 years, we have worked aggressively to 
deepen our interagency cooperation to combat the IED assembly 
line. So I am honored to be sitting alongside Lieutenant 
General Barbero of the Joint Improvised Explosive Device Defeat 
Organization, JIEDDO. As we have better understood how we might 
disrupt the material and financial flows that go into the 
making of these bombs, we have increasingly focused on how to 
degrade the complex global network of both legal and illegal 
activities that supply these weapons.
    It is not enough to single out a lone precursor chemical or 
a single individual. These transnational networks are too 
resilient and diverse for that approach. In addition to the 
threat to coalition personnel, IEDs cause significant death and 
injury among Afghan civilians, government, and security 
officials. As the transition to full Afghan security 
responsibility progresses, this threat will continue, and we 
have a clear interest in ensuring that Afghan Government and 
security personnel are able to protect themselves and their 
people from these devices.
    Afghanistan is taking steps to address the threat of IEDs. 
In June of this year President Karzai signed a national CID 
strategy. U.S. mission personnel in Kabul are working closely 
to support border capacity, rule of law, and other essential 
components of a comprehensive national effort to address this 
threat.
    The IED is also an increasing threat to Pakistani law 
enforcement, security, and civilian personnel, as you have 
noted. We have an interest in helping the Government of 
Pakistan meet these challenges, and it is on this basis of a 
common understanding of a shared threat that we believe the 
best prospects for cooperative meaningful action exist.
    As we have worked to address the supply chains that bring 
lethal aid into Afghanistan, we were constrained by the overall 
United States-Pakistan relationship in 2011. While we asserted 
the need for aggressive action against the IED supply chain 
during that time, it was difficult to make progress on this 
front absent progress on the broader bilateral relationship.
    Following the opening of the ground lines of communication, 
or GLOCs, into Afghanistan in July of this year, the United 
States and Pakistan agreed to restart a limited number of 
suspended working groups. Again, sir, as you noted in your 
opening statement, the first working group to meet following 
the opening of the GLOCs was a meeting of the Law Enforcement 
and Counterterrorism Working Group here in Washington on 
October 5, solely focused on the threat of IEDs. Pakistan's 
Interior Minister, Rehman Malik, cochaired the meeting with 
Assistant Secretary of State William Brownfield. The working 
group focused on identifying near-term specific actions for 
each side to take, on which we could measure progress in a 
limited window of time.
    Overall, there is considerably more that the Government of 
Pakistan must do to counter the threat from IEDs that our 
troops face in Afghanistan. However, we believe there has been 
a substantive change in the tone and content of the discussion 
with Pakistan as we have worked together to put our 
relationship on a surer footing.
    The Pakistanis have taken several important steps. The 
Government of Pakistan has assisted, through the U.N. Security 
Council, in the designation of key IED facilitators. Over the 
past year the Pakistani military has conducted eight operations 
against suspected IED manufacturing facilities along the 
border. There have been notable seizures of IED precursors in 
Pakistan by Pakistani forces in at least January, May, and 
December 2012. Embassy Islamabad reports greater cooperation 
with Pakistani law enforcement counterparts in the field and 
increased information-sharing.
    We strongly support these and other steps by the Government 
of Pakistan and will evaluate their effectiveness based on 
whether they contribute to diminishing the threat in the field.
    As the General noted, the United States has taken a number 
of steps to advance our CIED objectives. We have completed a 
public awareness campaign inside Pakistan designed to heighten 
public knowledge of the threat posed by IEDs and the terrorists 
who deploy them. Through close interagency cooperation, again 
focused in this community of action that the General referred 
to, we have pursued designation of key individuals in the 
network under U.S. law as well as through the U.N. Security 
Council. In 2012, Treasury has designed, pursuant to Executive 
Order 13224 on terrorism, two individuals for their role in 
facilitating Taliban IEDs.
    One of these individuals was also designated by the U.N. 
Security Council's 1988 Committee, and it is important to note 
that in 2012 and 2013 Pakistan serves as an elected member of 
the Security Council and therefore is part of the designation 
process.
    We have also increased our coordination with our closest 
allies and continue to support international efforts to address 
the threat, including through the World Customs Organization's 
program, Global Shield. Ninety-three of the WCOs 178 Member 
States are now participating in Global Shield.
    We are prepared to use the resources made available by 
Congress to help the Pakistanis address the IED problem. In 
response to the challenges of the last year, we recalibrated 
our security assistance, slowing execution. In the wake of the 
Defense Consultative Group, or DCG, meeting last week in 
Islamabad, we anticipate that the time required for delivery of 
security assistance, including CIED equipment for Pakistan, 
will improve. The Pakistanis emphasized at the DCG their 
priority for CIED force protection equipment.
    Subject to congressional notification, we anticipate using 
approximately $135 million from the fiscal year 2012 PCCF 
appropriation to support CIED efforts in Pakistan. Such an 
outlay would represent a significant portion of the overall 
PCCF budget.
    The consensus of key stakeholders that look at this very 
difficult challenge is that we must continue to assertively 
press the Pakistani Government to translate commitments into 
actions on the basis of an increasing understanding of a common 
threat. It is our belief that sustained administration and 
congressional attention on this matter has made a difference in 
the Pakistanis' approach and we will continue to press for 
specific and continuing progress in a few key areas.
    First, we will support joint Afghan and Pakistani 
initiatives, particularly at the border and with an emphasis on 
interdiction.
    Second, we believe it is important that the Pakistanis 
continue to advance implementation of their own CIED strategy, 
as referenced here, including the necessary legislation 
required to prosecute individuals for IED-related activities.
    Third, we expect continued cooperation from Pakistan for 
UNSC designations and the implementation of sanctions against 
those already so designated.
    Fourth, we will continue our conversations with the 
Government of Pakistan on how to further strengthen Pakistani 
banking supervision and regulation, particularly in the border 
areas.
    Fifth, in addition to the greater cooperation between 
Afghanistan and Pakistan noted above, we will support efforts 
at regional cooperation, including through the Istanbul 
process, where the governments of the region are looking at 
potential cooperation in a broad range of areas.
    Sixth, we will continue to focus on what Pakistani 
industry, including fertilizer and commercial explosive 
manufacturers, are doing to protect against diversion. JIEDDO 
has made its significant expertise available to increase the 
fertilizer industry's awareness of the misuse and to encourage 
greater end use controls and other measures to diminish the 
utility of their product for illicit purposes.
    Despite increased cooperation and emphasis by both the 
Governments of Pakistan and Afghanistan and our own sustained, 
concerted efforts, IEDs remain a principal threat to the 
security forces and civilian populations of both countries. 
This is not likely to diminish in 2013 and will require the 
continuation of robust counter-IED programs and adroit 
diplomacy.
    Mr. Chairman, we look forward to continuing to work with 
you, your office, and this committee on this important issue in 
the months ahead and I look forward to taking your questions 
today.
    Thank you.
    [The prepared statement of Mr. Carpenter follows:]

     Prepared Statement Senior Economic Adviser Jonathan Carpenter

    Thank you, Senator Casey, for the invitation to appear before the 
subcommittee.
    On behalf of Secretary Clinton and Ambassador Grossman, the 
Department appreciates the helpful role that the subcommittee has 
played in drawing attention to important issues in South and Central 
Asia, and particularly your leadership in seeking solutions to the 
lethal problem of improvised explosive devices, or IEDs. Your previous 
travel to the region and your continuing conversations with Pakistani 
officials are important signals of congressional attention to this 
matter.
    Secretary Clinton has consistently emphasized the importance of 
decisive action against the IED threat in her conversations with senior 
Pakistani officials the past few years, as she did again last week in 
Brussels with Foreign Minister Khar. Ambassador Olson has also 
emphasized counter-IED efforts in his initial calls with Pakistani 
officials in Islamabad, noting the deep concern expressed by this 
committee and the need for impactful action.
    Over the past 2 years, we have worked aggressively to deepen our 
interagency cooperation to combat the IED assembly line, and so I am 
honored to be sitting alongside LTG Barbero of the Joint Improvised 
Explosive Device Defeat Organization, or JIEDDO, with whom the Office 
of the Special Representative for Afghanistan and Pakistan has had the 
pleasure to work closely on behalf of our forces in the field.
    This hearing, and its focus on the role that terrorist networks 
play in the proliferation of these weapons, is critically important. 
These devices are supplied through a complex, global network of both 
legal and illegal activities into Afghanistan from neighboring 
countries, including Pakistan.
    As we have better understood how we might disrupt the flow of the 
material and financial resources that go into the making of these 
bombs, we have increasingly focused on how to disrupt and degrade the 
network at multiple nodes. It is not enough to single out a lone 
precursor chemical or a single individual. These transnational networks 
are too resilient and diverse for that approach. We must use all the 
tools available to us and partner with those who share our interest in 
stopping these supply chains, and build capacity for further action.
    As you know, IEDs are responsible for the majority of coalition 
fatalities in Afghanistan. IEDs are also responsible for significant 
death and injury among Afghan civilians, government, and security 
officials. The police chief for Nimroz province was killed by a 
roadside bomb on Monday morning of this week. I would emphasize that as 
the transition to full Afghan security responsibility continues, this 
threat will continue, and we have a clear interest in ensuring that the 
Afghan Government and security personnel are able to protect themselves 
and their people from these devices.
    It is important to recognize the work being done by Afghanistan, 
with our support, to address the threat of IEDs and prepare for the 
full transition of security responsibilities by the end of 2014. In 
June of this year, President Karzai signed a National CIED strategy. 
Since then, the working groups for the five pillars of that strategy 
(Security, Rule of Law, Diplomatic Engagement, Governance & Engagement, 
and Public Awareness) have met and are developing engagement plans. 
Alongside the training and equipping of the Afghan National Security 
Forces, U.S. mission personnel in Kabul are working closely to support 
border capacity, rule of law, and other essential components of a 
comprehensive national effort. Afghan officials deserve credit for 
increasing numbers of seizures of IED making material.
    What is also clear is that the IED is an increasing threat to 
Pakistani law enforcement, security, and civilian personnel. Suicide 
bombers killed six people at a police station in North Waziristan on 
Monday of this week. IEDs are a threat to the stability of Pakistan, 
and we have an interest in helping the Government of Pakistan meet this 
challenge. It is on this basis, of a common understanding of a shared 
threat, that we believe the best prospects for cooperative, meaningful 
action exist.

                  ENGAGING THE GOVERNMENT OF PAKISTAN

    As we have worked to address the supply chains that bring lethal 
aid into Afghanistan, we were constrained by the overall U.S.-Pakistan 
relationship in 2011. It is well documented that 2011 was a difficult 
year in the U.S.-Pakistani relationship. While we continued to assert 
the need for aggressive action against the IED supply chain in 
conversations with Pakistani officials during that time, it was 
difficult to make progress on this front absent progress on the broader 
bilateral relationship.
    Following the opening of the Ground Lines of Communication (GLOCs) 
into Afghanistan in July of this year, the United States and Pakistan 
agreed to restart a limited number of suspended working groups. We 
prioritized groups where our core interests were at stake, and where we 
saw potential shared interests with the Government of Pakistan.
    Counter-IED efforts were identified as a top priority, and the 
first working group to meet following the opening of the GLOCs was a 
Law Enforcement and Counter Terrorism Working Group, on October 5 in 
Washington, focused on IEDs. We appreciate that Pakistan's Interior 
Minister, Rehman Malik, made the trip to cochair the meeting with 
Assistant Secretary of State William Brownfield. The working group 
identified near-term, specific actions for each side, on which we could 
measure progress in a limited window of time. One recommendation called 
for closer Afghan-Pakistani cooperation on the CIED issue; and I am 
pleased that a tripartite meeting of U.S., Pakistani, and Afghan 
officials, met just over a month later.
    The Pakistani Government repeatedly emphasizes the threat IEDs pose 
inside Pakistan, and there is increasing public acknowledgement of the 
threat posed by shipments that are smuggled across the too-porous 
Afghanistan-Pakistan border. In the recently concluded Defense 
Consultative Group meeting, in Islamabad earlier this month, the 
Pakistanis produced a comprehensive review of the threat IEDs pose to 
their interests, as well as actions that they have taken to attack 
networks that supply these devices. We believe it is imperative to 
build on this shared understanding to overcome differences and 
mistrust, and find meaningful ways to lower the risk to our personnel 
in Afghanistan.

                             IED PRECURSORS

    To attack these networks, we believe it is important that we look 
at the entire supply chain, including the full range of precursor 
chemicals and other required IED components. There has, and must 
continue to be, a great deal of attention paid to Calcium Ammonium 
Nitrate, or CAN, a fertilizer produced in Pakistan and used legally for 
agricultural purposes in Pakistan. Afghanistan, as this committee 
knows, outlawed CAN in January 2010. However, CAN continues to be 
smuggled into Afghanistan across the border in large quantities, and 
homemade explosives based on CAN remain the most frequently deployed 
charge in Afghanistan.
    We now also have better understanding of the role played by 
potassium chlorate, which is not produced in but is transshipped 
through Pakistan and possibly Afghanistan's other neighbors, and is 
increasingly found as the main charge in IEDs in Afghanistan's Eastern 
provinces. Potassium chlorate is a legal product in Pakistan, and has 
numerous valuable commercial uses. We begun discussions with suppliers 
and the Government of Pakistan to address vulnerabilities in the supply 
chain and ensure appropriate end-user verification for shipments of 
potassium chlorate.
    Similarly, conventional explosives and certain electronic 
components are critical to the construction and deployment of IEDs. We 
must continue to identify how and where these materials are diverted 
out of legal supply chains and into illicit networks.

                        U.S. GOVERNMENT ACTIONS

    The United States has taken a number of steps to advance our CIED 
objectives. We have completed a public awareness campaign inside 
Pakistan, designed to heighten public knowledge of the threat posed by 
IEDs and the terrorists who deploy them, and we are working with the 
Government of Pakistan on the next stage of that campaign. One of the 
issues discussed at the recent Law Enforcement Working Group was 
support for Pakistan launching a national CIED tip line, as a tangible 
recognition of the national threat these devices pose, and we look 
forward to helping the Government of Pakistan implement that effort.
    Through close interagency cooperation, we have pursued designation 
of key individuals in the network, under U.S. law as well as through 
the U.N. Security Council. In 2012, Treasury has designated pursuant to 
Executive Order 13224 on terrorism two individuals, Abdul Samad 
Achekzai and Maulawi Adam Khan Achekzai, for their role in facilitating 
Taliban IEDs. Samad was also designated by the U.N. Security Council's 
1988 Committee. It is important to note that in 2012 and 2013 Pakistan 
serves as an elected member of the Security Council, and therefore 
agreed to these designations. In all, Treasury has designated 15 
individuals and three hawalas associated with the Taliban and six 
Haqqani Network (HQN) officials pursuant to E.O. 13224; and one Taliban 
Commander pursuant to the Foreign Narcotics Kingpin Designation Act.
    We have coordinated closely with our international partners in 
Afghanistan, including the U.K. and Australia, who are also engaging 
the Pakistani Government on these issues and are providing critical 
capacity building support. Our partnership with allies emphasizes 
complementarities and seeks to leverage different relationships.
    We have also continued to support international efforts to address 
the threat in the region. The State Department has worked cooperatively 
with the Department of Homeland Security to support and fund the World 
Customs Organization's Project Global Shield. This program brings 
together the expertise of the World Customs Organization, Interpol, and 
the United Nations Office on Drugs and Crime to monitor the trade flows 
of 14 precursor chemicals, including ammonium nitrate.
    Project Global Shield is in an international effort to raise 
awareness of the lethal effects of diverted trade flows and improve the 
ability of customs and border officials in Afghanistan, Pakistan, and 
the Central Asian states to identify and seize the precursor chemicals 
smuggled across the borders and used in the manufacture of IEDs. As a 
measure of international attention on this growing threat, 93 of the 
WCO's 178 member states are now participating in Project Global Shield. 
This collaborative effort has resulted in 49 seizures of IED 
precursors, including more than 140 metric tons of seized CAN, and 42 
law enforcement actions.

                  TRANSLATING COMMITMENTS INTO ACTION

    Overall, it must be said that Pakistan's efforts to combat IEDs, 
while now going in a constructive direction, remain incomplete. The 
strategy that was discussed here in this committee more than 2 years 
ago has not been fully implemented, nor incorporated into legislation. 
In some cases, there have been notable regulatory changes, though 
enforcement remains inconsistent, at best. There are, as the Pakistanis 
point out, good reasons for this--particularly a lack of capacity, 
equipment, and training. We continue to work with the Government of 
Pakistan on ways in which we can remove obstacles to implementation.
    In recent months, we believe there has been a substantive change in 
the tone and content of the discussion with Pakistan as we work to put 
our relationship on surer footing. There have been noticeable and 
tangible steps forward. There is now a readiness to engage at many 
different levels, both in military and civilian channels, and the 
Pakistanis have taken several important steps over the last year, 
including:

--The Government of Pakistan has assisted, through the U.N. Security 
    Council, in the designation of key IED facilitators.
--Over the past year, the Pakistani military has conducted eight 
    operations against suspected IED manufacturing facilities along the 
    border. There have been notable seizures of IED precursors in at 
    least January, May, and December of this year.
--Embassy Islamabad reports greater cooperation with Pakistani law 
    enforcement counterparts in the field and increased information 
    sharing, including regular meetings of action officers to 
    coordinate CIED efforts.

    We strongly support these and other steps and will evaluate their 
effectiveness based on whether they contribute to diminishing the 
threat in the field.

                              CIED SUPPORT

    We are prepared to use the resources made available by Congress to 
help the Pakistanis address the IED problem. In response to challenges 
of the last year, we calibrated our security assistance, slowing 
execution. Since 2009, State and DOD provided approximately $113 
million in Pakistan Counterinsurgency Capability Fund (PCCF) and 
Pakistan Counterinsurgency Funds (PCF) to support Pakistan's CIED 
efforts, including for forensic and detection kits, jammers, and mine 
resistant vehicles. Some of these items are pending delivery, as we 
work with Pakistan to identify appropriate units, consistent with our 
assistance requirements.
    In the wake of the Defense Consultative Group (DCG) meeting last 
week, we anticipate that the time required for delivery of security 
assistance, including CIED equipment, for Pakistan will improve. The 
Pakistanis emphasized at the DCG their priority for CIED force 
protection equipment. Subject to congressional notification, we 
anticipate using approximately $135 million from the fiscal year 2012 
PCCF appropriation to support CIED efforts in Pakistan. Such an outlay 
would represent a significant portion of the overall PCCF budget.
    Consistent with the legislative language included in the Fiscal 
Year 2012 State Appropriations, the Department has also worked closely 
with the Department of Agriculture to expand certain Agriculture 
Extension programs related to soil fertility in Pakistan. These 
programs are run extensively here in the United States, and elsewhere 
around the world, to teach farmers proper soil management, improve crop 
yield, and decrease reliance on fertilizers.
    We are using all of our available and significant resources to 
address the IED problem, but appreciate Congress' support to provide 
flexibility in all assistance flows in support of this effort.

                            PRIORITY ACTIONS

    The consensus of key stakeholders that look at this very difficult 
challenge is that we must continue to assertively press the Pakistani 
Government to act, on the basis of an increasing understanding of a 
common threat. We must test the positive change to the relationship in 
recent months, as we press for action to defeat the network. It is also 
our belief that sustained administration and congressional attention on 
this matter has made a difference in the Pakistanis' approach. We will 
continue to press for specific and continuing progress in a few key 
areas.

--First, we will support joint Afghan-Pakistani initiatives, 
    particularly at the border and with an emphasis on interdiction. As 
    demonstrated by the recent tripartite meeting, the United States 
    has the ability to facilitate information-sharing between the 
    parties. At the same time, we believe it is important that these 
    meetings include civilian personnel from all sides, to ensure 
    whole-of-government efforts.
--We believe it is important that the Pakistanis prosecute individuals 
    for IED related activities. We note that there have been a number 
    of important arrests in recent months, but we support Pakistan's 
    efforts to seek prosecutions in these cases.
--We expect continued cooperation from Pakistan for UNSC designations 
    against those involved in supporting the insurgency in Afghanistan, 
    and we would expect a full conversation with the Government of 
    Pakistan regarding implementation of U.N. sanctions against those 
    already designated.
--We will continue our conversations on how to further strengthen 
    Pakistani banking supervision and regulation, particularly in the 
    border areas.
--In addition to the greater Afghanistan-Pakistan cooperation noted 
    above, we have supported efforts at regional cooperation, including 
    the Istanbul Process, where the governments of the region are 
    looking at potential cooperation in a broad range of areas. This 
    regionally led initiative provides a vehicle for a truly regional 
    conversation, something for which the Government of Pakistan has 
    called.
--And we will continue to broaden the dialogue beyond governments. We 
    applaud Pakistani private sector interest in engagement with 
    industry organizations and international associations for the 
    purpose of learning and implementing best practices, including in 
    supply-chain management. As global awareness of the IED threat 
    deepens, there will be focus on what Pakistani industry, including 
    fertilizer and commercial explosives manufacturers, are doing to 
    protect against diversion. JIEDDO has made its significant 
    expertise available to increase the fertilizer industry's awareness 
    of the misuse and to encourage greater end-use controls and other 
    measures to diminish the utility of their product for illicit 
    purposes.

    Despite increased cooperation and emphasis by both the Governments 
of Pakistan and Afghanistan, and our own sustained, concerted efforts, 
IEDs remain a principle threat to the security forces and the civilian 
populations of both countries. This is not likely to diminish in 2013 
and will require the continuation of robust counter-IED programs and 
adroit diplomacy.
    Mr. Chairman, we look forward to continuing to work with you, your 
office and this committee on the important issue in the months ahead. 
And I look forward to taking your questions today. Thank you.

    Senator Casey. Thank you very much, Mr. Carpenter. I 
appreciate that.
    Just for the record, I know that I was in my opening using 
acronyms without spelling them out. That's probably not a good 
idea. For those who are listening and may not know these 
acronyms, when we refer to ``JIEDDO'' we're of course referring 
to the Joint Improvised Explosive Device Defeat Organization, a 
long-winded terminology, but that's why we need the acronym.
    Of course, when we talk about Mr. Carpenter's duties, when 
we say ``SRAP'' we mean Special Representative for Afghanistan 
and Pakistan.
    General, I'm going to start with you with regard to the 
private sector part of this in Pakistan. You highlighted this. 
We all have in one way or another, but the fact that you've got 
a small number of producers, in essence producers of 
fertilizer, in Pakistan, a small portion of their production is 
enough to make thousands and thousands of IEDs. I know you've 
engaged with the leadership of these organizations and we 
appreciate that because that's critically important.
    To be honest about it, it's an uneven record of cooperation 
in terms of these companies' efforts to engage with the 
international community in terms of stemming the flow of 
calcium ammonium nitrate into Afghanistan. I wanted to see if 
you could provide-- 
I know you referred to it earlier, but maybe a couple of 
minutes and just kind of a report on where things stand as you 
see it as it relates to the engagement between the Pakistani 
Government and these private sector entities, and of course our 
engagement and your engagement, with these companies?
    General Barbero. Yes, Senator. I met with the leader of the 
Fatima Group last year in my office. Since that time, all 
direct contact with them we've been informed must go through 
the Ministry of Foreign Affairs in Pakistan. So I've not had 
direct contact with them for over a year since last September.
    But at that time we requested the actions that I indicated, 
specifically find a way to dye this material so border guards 
on both sides or soldiers can look at something and determine 
that it is either the residue or the ammonium nitrate. Right 
now it is a nondescript, milky white substance, which is often 
repackaged as detergent, so how can you tell the difference in 
what it is? So we requested that.
    We requested some sort of education plan with their over 
1,500 distributors about what to look for as far as misuse of 
this product. The third step we asked was: let's study how to 
reformulate this. This is difficult, but to be an industry 
leader, and specifically with this problem, can we put the 
scientists, see how we can reformulate so it's either harder or 
impossible to turn into a detonable material?
    Then the last step is let us put some effective tracking 
and control measures on the flow of this material from the 
factories. Two factories in Pakistan each produce about 400,000 
metric tons of this a year. But as I said, it's illegal in 
Afghanistan, but it still makes its way there.
    So I have not had direct engagement. We have asked this. We 
have been told ``no'' on the dye unless there is an 
industrywide solution to this. On the positive side, the 
international fertilizer 
associations and organizations are very supportive.
    They have organized a product security work group. They 
have had one meeting. They are having another meeting in 
January in Washington to come up with an action plan to see how 
they can execute these four measures. So they are moving out.
    Unfortunately, I have heard of no progress or minimal 
progress from the leaders of Fatima Group.
    Senator Casey. Look. To be skeptical--it is part of my job 
to be skeptical. It is part of your job as well. But I am 
assuming that--and I will ask you to confirm this--when you got 
word that all of your communications had to be routed through 
and handled by their foreign ministry, I am assuming that you 
did not take that as a good sign?
    General Barbero. I do not, and we have requested subsequent 
meetings and they have not occurred.
    Senator Casey. So not even meetings?
    General Barbero. I have had one meeting with a member of 
the Fatima Group. He came here in September after an article 
appeared in the Washington Post asking. We had a good exchange 
of ideas. But that's been the only one in 14 months.
    Senator Casey. I want to give even for a couple of minutes 
the benefit of the doubt to the Pakistani Government.
    It often happens in Washington where you're trying to 
communicate with an agency and they say, you can't communicate 
this way, you have to go through some other office. We get 
skeptical when that happens in our domestic policy.
    To give you a sense of why I'm skeptical, in light of the 
track record here of not implementing a strategy that they 
developed, not having the kind of cooperation that we would 
expect. When that is the predicate to an action where they have 
you communicating more indirectly and then, to add insult to 
injury, having difficulty holding even a meeting or meetings, 
I'm a little more than skeptical. So we will just put that on 
the record.
    General, I know you had testimony in the House Defense 
Appropriations Subcommittee on September 20. You discussed 
efforts to urge the--and you referred to this here--the 
International Fertilizer Association to commit to countering 
the illicit use of fertilizer. Can you give us a little better 
sense of that in terms of where that stands and how the Senate 
could encourage a constructive approach to the industry 
globally?
    General Barbero. Well, I believe calcium ammonium nitrate 
is a global issue. We have tragic experience with it here--
Oklahoma City, the first World Trade Tower attack, on and on, 
the failed attack in Time Square 2 years ago by the Pathfinder 
that was 
loaded with ammonium nitrate. It continues to be used 
worldwide--Oslo last summer, Mumbai. It is a ubiquitous 
fertilizer around the world and easily, readily available, very 
cheap. A bag of it for about $50 you can turn into $6 to $8 
very effective IEDs.
    So we have met with the leadership from the major 
fertilizer organizations and explained this issue to them and, 
to their credit, they have been very receptive and have taken 
this on and, as I said, formed a product security work group to 
develop a plan of action on the four initiatives that we have 
asked. They have been very receptive. They have had meetings 
and we expect out of this next meeting in January here they 
will develop an action plan with a time line to pursue these.
    So I am very encouraged by the positive response from these 
organizations. I think as we engage with them, just to 
encourage continued development, especially tracking and 
securing of their products, that is the first step that they 
can put in, which I think many of them are doing voluntarily. 
That is the most immediate effect that they can have.
    Senator Casey. I want to ask you about the transition, 
which we are concerned about more broadly, but especially the 
impact of the transition on this issue. But a couple of points 
I want to make sure I put on the record. I know in your 
testimony there is some of this already.
    Is it accurate to say that over the last several years, say 
the last three, that the number of what are described as 
events, where there is an IED that detonates--let me just get 
that right. You would consider that an event?
    General Barbero. Senator, that is an event when we find an 
IED----
    Senator Casey. Or find one.
    General Barbero [continuing]. Or it is detonated safely, we 
find and clear it or it detonates without injuries. Those are 
all IED events, so we can understand the scale of the problem.
    Senator Casey. So the number of events has increased, which 
would lead you to believe logically there is more of a flow, to 
use my words. But at the same time, the number of events is 
growing, which is bad news. The good news is we are doing a 
much better job of finding, detecting, and also protecting our 
soldiers when there is an explosion.
    Can you walk through some of those numbers just so people 
have a broad sense of the figures here?
    General Barbero. I can. First of all, to the metric that is 
our golden metric, what we call an effective attack, that 
produces a wounded-in-action or a killed-in-action. That has 
been cut in half and has been steadily dropping the last 29 
months. I attribute that to a couple of factors: better 
training back here by our troopers; obviously equipping, the 
surge of equipment from handheld devices to undergarments to 
sensors to dogs has had an impact. Also, Senator, I would say 
the improved performance of the Afghan forces. We find when we 
are partnered with Afghan forces our find-and-cleared rates go 
up and the effective attacks go down. They are better, 
obviously, at interacting with the population.
    So the most important metric is a reduction in casualties. 
I would tell you the number of IED events from last year, 2011, 
was an all-time high. June 2012, this past summer, was the 
highest monthly total. But 2012 compared to 2011, the number of 
IED events is down 12 to 15 percent. Casualties are down 40 
percent. So those are I think the important measures.
    The problem is still here with numbers of IEDs. However, 
our troopers have been more effective in dealing with them and 
reducing the casualties.
    Senator Casey. Obviously, when we say casualties--killed or 
injured.
    General Barbero. Killed or wounded in action; yes.
    Senator Casey. Killed or wounded in action. And that number 
in 2011 was a little more than 1,900, 1,938, or something like 
that?
    General Barbero. I can give you the specific numbers here.
    Senator Casey. And this year, 2012, we are on track to 
matching that or coming close. We are above 1,800?
    General Barbero. We are, and we will be a little below. I 
think we are about 12 to 18 percent below numbers of IEDs, raw 
numbers of IED events, compared to last year, which was the 
highest year ever.
    Senator Casey. Before I go to Mr. Carpenter--I know we are 
short on time because we have a closed session, and I am 
probably asking too many questions. You can tell I have got a 
couple here.
    With regard to the strategy we are trying to employ during 
the transition, and to achieve some success in bringing those 
numbers down that you just cited, what is your greatest concern 
about the transition, the drawdown of our forces?
    General Barbero. My greatest concern is I believe our 
troops could be more vulnerable to these IEDs. Right now and in 
the past, when you have a large number of troops and boots on 
the ground, you are out there operating among the population, 
your situational awareness, your intelligence, your 
understanding of what is happening, who is who, what is the 
threat, is very high.
    As we reduce numbers and transition to the Afghan forces in 
the lead, the fidelity that we have of these incidents, what 
type of weapons is dropping, their reporting is not as rigorous 
as ours. So I am concerned that--and we saw this in Iraq. As we 
drew down numbers of forces, your situational awareness drops 
and, frankly, your movements on the roads become more 
predictable. You are not operating within this large bubble or 
large presence.
    So to sum up, I believe the IED will continue to be the 
weapon of choice against our forces and we must remain vigilant 
for future capabilities and emerging tactics, techniques, or 
procedures that could be used against our troops.
    Senator Casey. When I was last in Afghanistan, in August 
2011, the four of us--Senator Whitehouse, Senator Blumenthal, 
and Senator Bennet--had a great briefing. This briefing was 
really an on-the-ground briefing of all the ways that our Armed 
Forces and the scientists and the technology research that 
backs it up, are detecting and dealing with this problem.
    I was struck by the great old American ingenuity, the 
remarkable technology. But it ran the gamut from the most 
rudimentary kind where they would have--if there was a fuse 
hidden in the dirt, they would use like a long extension pole 
with a little hook on it and they would just drag it along, and 
when they would hit the wire, so to speak, it would tell them 
where they were. That was rudimentary. Then all the way to the 
more sophisticated technology that we have.
    The undergarments for the soldiers that are now being 
produced, thank goodness. I was struck by all the ways and all 
the research and effort that it is taken to protect our troops. 
I juxtapose that effort by our government, our military, our 
scientists here, with what I hope the Pakistanis put a better 
effort forth on. They just do not seem to be as committed.
    The other thing which struck me was the power of these 
explosions. They told us at one point at the very end of our 
briefing--we were about 100 yards or more, maybe 150 yards away 
from a demonstration. They warned us, they said: We are going 
to have an explosion. They told us the explosion was about, if 
my memory serves me, about one-third or one-fifth of the 
typical explosion that a soldier would feel. Again, we were 
really far away. When they detonated the device, it was 
stunning. That was a small explosion, a really low-intensity 
explosion, and it was horrific to hear the sound of that and 
feel the shock of it even that far away.
    So I just cannot imagine what these two soldiers and 
thousands like them have been through when they get exposed to 
that kind of explosion.
    Mr. Carpenter, I wanted to ask you--I know we are really 
short on time; in fact, I am over time, but that happens--about 
the border. The Pentagon section 1230 report cites an early 
August 2012 interdiction of 46,200 pounds of ammonium nitrate 
concealed in a truck at the Torkham Gate, the border crossing. 
Afghan customs police, who are provided a scanner by the U.S. 
Customs and Border Protection, were responsible for this 
interdiction, thank goodness.
    This kind of success should be replicated on the Pakistani 
side of the border. Going back many, many months now, I 
discussed this with Ambassador Rehman, who was open to more 
cooperation on border security.
    Do you know, if you can answer this, what we are doing to 
improve the capacity of Pakistani border personnel to identify 
and interdict illicit material passing through border 
crossings, whether it is at the Torkham Gate or others? And 
what are the obstacles to more cooperation? Because this border 
question is at the heart of the problem. In fact, when Foreign 
Minister Khar, who is a very impressive, brilliant individual, 
came to the Foreign Relations Committee to have a kind of a 
conversation with members of the committee, I was pressing her 
on this border question. I just want to give you an 
opportunity, if you can, to kind of walk through what, if any, 
progress we have made on the border and the cooperation between 
us and the Pakistanis?
    Mr. Carpenter. Thank you, Senator, yes. First, I would 
reference in my testimony the defense consultative group that 
met recently and really restarted the conversation on security 
assistance that, as I said, during this period of constrained 
relations in 2011 we had sort of slowed the execution on the 
disbursement of that. As such, part of their specific request 
to us was for both force protection and some CIED detection 
capabilities. Now we are working through that request.
    As I said to you, we believe that we will have significant 
funds available out of fiscal year 2012 appropriations to put 
toward this request.
    I would note that the border was a clear focus of the law 
enforcement working group that we had here with Minister Malik. 
One of the things that he stressed and that we have seized upon 
is a desire for closer cooperation with the Afghans. We think 
that this is a very important vehicle to pursue moving forward. 
So shortly after that, that working group meeting, there was a 
tripartite meeting. This is members of ISAF, the coalition, the 
military coalition in Afghanistan, Afghan military, and 
Pakistan military, joined, importantly, by Pakistan interior 
ministry representatives. They met as a tripartite and had a 
productive, by their own accounts, a productive discussion 
about how to move these issues forward.
    We think pushing down this line of attack is a very 
important one to close that gap. So to your point, we think 
there is more that we can do in terms of building capacity at 
these borders. We work closely with partners on this--the 
United Kingdom, some of the U.N. agencies, have training 
programs that we engage with on the ground in Islamabad in 
support, and we look to do more on that. So I hope that begins 
to address your question, sir.
    Senator Casey. Maybe when we have a bit more time we can 
pursue it further. I would hope that, in light of all the great 
work that our government has done, whether it is the Department 
of Defense, the State Department, the administration, the work 
that the Congress is doing on this, I would hope, though, that 
in light of the exasperation we feel, the frustration we feel, 
and in light of the horror this is causing to our troops, I 
would hope that coming out of that October engagement that we 
have benchmarks or measuring tools to assess what they have 
done since that.
    I was encouraged by the October meeting and that 
engagement. However, it is month after month now, year after 
year, of leaders in Pakistan promising, shaking their head when 
I raise it, shaking their head when others raise it, saying: We 
understand, we understand; we are going to do something. And 
then the results aren not nearly what we would expect.
    So I would hope that you have a way of measuring and 
assessing this in a matter of weeks and months instead of 
waiting a long time to assess what they are doing. I do not 
know if you want to comment on that.
    Mr. Carpenter. If I might, sir, I think that is exactly at 
the heart of the problem here. Foreign Minister Carr when she 
was here, I believe in September, made reference to something 
like 53,000 people crossing that border on a daily basis. So 
this is exactly the problem. And when you hear in our testimony 
a description of the flow across the border, what you do not 
hear is specific statistics of that flow. We have indications 
on either side of the movement of these materials, so we have 
evidence and can come to conclusions about the flow, but we do 
not actually have great fidelity on exactly how much. This is 
on a given day and what route is taken.
    I think that is one of the really important things that 
General Barbero and this sort of greater interagency 
cooperation that we have talked about, particularly the 
intelligence community, has been focused upon: How do we have 
better fidelity on these networks; how do we understand them; 
how do we understand the transition from legal commerce--which 
is what you were discussing when you talk about the Fatima 
Group and others, which are legal businesses--to this illicit 
trade that ends up doing so much damage on the other side of 
the border?
    So you are exactly right, that is the task that we put to 
Minister Malik, and there are significant indications, again 
particularly in this discussion and this willingness to do 
information-sharing both with us as well as between the Afghans 
and the Pakistanis, to see some demonstrable progress on this 
in terms of interdictions, in addition to the interdictions 
that you referenced and I referenced in my testimony, sir.
    Senator Casey. I know we are pretty much out of time, but I 
know that Members of Congress have an obligation to be 
constructive, have an obligation to try to undertake efforts 
that will lead to a better relationship between our two 
countries, our two governments, and our sharing of information 
and cooperation.
    We also have an obligation to these troops and their 
families and taxpayers to make sure that we have measures in 
place to hold the Pakistanis accountable for their promises. So 
I am going to do my best to try to continue to be constructive, 
but I am also going to be, as we all must be, vigilant and 
determined to get results, not just promises.
    I know we are out of time, but I am grateful that both of 
you are here. I appreciate your testimony. But more important, 
we appreciate the work you are doing on this important issue.
    We had to move locations, but now we will go to a closed 
setting. Let me say something before we conclude. I do not get 
a chance to do this nearly enough. In addition to thanking the 
Foreign Relations staff for moving us here and helping us, I 
want to commend my staff: Damian Murphy, who has done great 
work on this for years now, work helping us to track this issue 
and to be as constructive and helpful as we can be. Next to 
him, Chloe Bowser, who is leaving our staff, but has done great 
work on this and many other issues as a member of our Foreign 
Relations staff. She will be leaving, but we are grateful for 
her good work and for the work that she did in particular on 
these issues.
    So I think we will adjourn for now and go to closed 
session.
    Thank you.
    [Whereupon, at 11:29 a.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
